 TRANSPORTATION TECHNOLOGY
INNOVATION AND DEMONSTRATION
        PROGRAM (TTID)
     Federal Highway Administration

     Report Number: MH-2010-030
     Date Issued: December 8, 2009
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Transportation Technology Innovation                                   Date:    December 8, 2009
           and Demonstration Program
           Federal Highway Administration
           Report No. MH-2010-030

  From:    Joseph W. Comé                                                              Reply to
                                                                                       Attn. of:   JA-40
           Assistant Inspector General
              for Surface and Maritime Program Audits

    To:    Federal Highway Administrator

           This report presents the results of our audit of the Federal Highway
           Administration’s (FHWA) management and oversight of the $54 million awarded
           under the Transportation Technology Innovation Demonstration Program (TTID). 1
           TTID was conceived as a partnership between the public and private sectors. The
           private partner would install and operate technology that collected traffic data
           from public roadways in exchange for the exclusive right to generate revenue from
           the data, such as by marketing on-air traffic reports. If revenue reached a certain
           threshold, the private partner would share the proceeds with the public partner.
           The private partner would also give the data to the public partner to manage traffic
           congestion—such as locating and responding to traffic crashes and planning
           infrastructure projects for congested road segments. Congestion costs Americans
           $78 billion annually, including 4.2 billion hours of excess travel time and
           2.9 billion gallons of extra fuel. 2

           To implement TTID, FHWA paid the private partner (referred to in this report as
           the service provider) $2 million per metropolitan area to provide traffic data
           services through installation and operation of sensors and data transmission
           equipment in public rights-of-way. The service provider then negotiated
           agreements with metropolitan areas—addressing terms such as where, when, and
           how the service provider would install its equipment and how the partners would
           calculate the service provider’s revenue sharing and use the collected traffic data.

           1
               TTID was previously known as the Intelligent Transportation Infrastructure Program (ITIP). Throughout this report,
               we refer to the program as TTID.
           2
               Texas Transportation Institute, 2007 Urban Mobility Report, Texas A&M University System, September 2007.
                                                                                                                          2


Based on requests from U.S. Senator Orrin Hatch and U.S. Representative
Anthony Weiner, we reviewed FHWA’s management of TTID, including the
process to select private partners after 2005 amendments to the authorizing statute.
In discussions with staff, we agreed to assess whether FHWA (1) achieved
statutory goals and optimized TTID benefits for the public partners and
(2) complied with 2005 statutory provisions for a competitive private partner
selection process. To accomplish these objectives, we analyzed legislation,
contract provisions, and congressional communication and performed audit work
focused on Federal and metropolitan area program oversight related to non-
Federal funding, revenue sharing and reinvestment, data rights, and data quality.
Additional information on our scope and methodology is in exhibit A.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


RESULTS IN BRIEF
TTID addressed statutory goals, 3 but FHWA did not optimize the program’s
benefits for the public partners. The private service provider deployed traffic data
collection systems in metropolitan areas, shared revenues, and produced software
to generate traffic reports for Federal, state, and metropolitan agencies. FHWA
provided assistance, such as sample contracts, to the states and metropolitan areas
as they negotiated agreements with the service provider. However, FHWA
allowed the service provider to control significant aspects of the program that, as a
result, diminished TTID’s value to the public partners. For example, the public
partners received a lower share and limited use of TTID revenue, and were
restricted from freely communicating certain traffic data to the traveling public.
Additionally, FHWA did not enforce the task order’s data quality requirements,
which reduced the reliability of travel time estimates and traffic operations.
FHWA did not optimize the public partner benefits because FHWA focused on
addressing congressional interest and minimizing the service provider’s financial
risk to prevent program disruption. Specifically, FHWA officials told us that the
statutory provisions established how the program was to work and FHWA did not

3
    Transportation Equity Act for the 21st Century (TEA-21), Public Law 105-178, Section 5117(b)(3), June 9, 1998, as
    amended by Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU),
    Public Law 109-59, Section 5508, August 10, 2005, identifies the following objectives: (1) build or integrate an
    infrastructure of traffic measurement; (2) provide private technology commercialization initiatives to generate and
    reinvest gross revenues; (3) aggregate data into reports for multipoint data distribution; and (4) utilize an entity with
    experience with high-reliability, mission-critical voice and data systems.
                                                                                                       3


have flexibility to manage the program in any other way. Although Congress
directed FHWA to extend the existing service provider’s task order and members
of Congress sent letters regarding TTID expansion, FHWA could have done more
to protect the public interest. Moreover, because FHWA was concerned about the
service provider’s financial risk, FHWA paid the service provider for installation
of specified equipment, rather than paying for the data services as they became
available. TTID is intended to generate public partner benefits during the several
years remaining on FHWA’s task order with the current service provider.
Consequently, we are recommending that FHWA modify its TTID implementation
to enhance the public benefits of the program. Our recommendations are listed at
the end of this report.

Regarding competition for TTID service provision, FHWA took action to comply
with the 2005 statutory provisions calling for a competitive private partner
selection process. However, FHWA had limited TTID funds remaining and
experienced delays during the competitive solicitation process. Congress
rescinded the remaining money before FHWA completed the competition.


BACKGROUND
In the 1998 statute that created TTID, Congress directed the Secretary of
Transportation to initiate a program to deploy an operational intelligent
transportation infrastructure system. About $11.8 million was made available for
1998 through 2005 to introduce the program in multiple metropolitan areas.

In April 1999, the Department, using an accelerated procurement process, awarded
a lump sum task order for 5 years of data services. 4 The prime contractor retained
a 5-percent management fee and subcontracted with a service provider for all
program work. The service provider then negotiated local agreements with
Philadelphia and Pittsburgh, the metropolitan areas Congress specified in law.

In October 2000, Congress authorized an additional $50 million for TTID.5
FHWA planned to award these funds on a competitive basis; however, in
January 2002 before FHWA did so, Congress authorized the Secretary to extend
the original task order, which required use of the existing service provider and task
order terms. 6 In June 2002, FHWA awarded to the original service provider a
$50 million lump sum, firm-fixed-price task order for data services in
25 metropolitan areas at $2 million each, which required the completion of
10 milestones with specific deliverables. Between June 2002 and August 2005,

4
    The Department awarded a subsequent 10-year task order.
5
    Fiscal Year 2001 DOT Appropriations Act, Public Law 106-346, Section 378, October 23, 2000.
6
    Fiscal Year 2002 Defense Appropriations Act, Public Law 107-117, Section 1101, January 10, 2002.
                                                                                                                  4


the service provider negotiated local agreements with 14 states and metropolitan
areas totaling $28 million.

In August 2005, Congress modified the TTID statute to replace the revenue
sharing provision with a revenue reinvestment provision, among other changes. 7
It also created part I and part II. Part I permitted the current service provider to
complete the original task order in specified metropolitan areas. The service
provider then negotiated agreements with 11 metropolitan areas for $22 million,
which completed the June 2002 $50 million Federal task order. Part II directed
the Department to award contracts on a competitive basis and required that the
deployed technology in one geographic area be compatible with the technology in
other areas.


TTID ADDRESSED STATUTORY GOALS, BUT FHWA DID NOT
OPTIMIZE BENEFITS FOR PUBLIC PARTNERS
TTID addressed the four goals laid out in the 1998 and 2005 statutes. However,
FHWA allowed the service provider to control significant aspects of the program
and diminish TTID’s value to the public partners. That is, FHWA allowed the
service provider to interpret ambiguous task order language on revenue sharing to
provide less to the public partners. Further, because the task order granted the
service provider complete control and ownership of the data collected through the
federally funded program, the participating metropolitan areas did not achieve the
extent of infrastructure integration FHWA anticipated when it approved the
program.     Also, FHWA’s inadequate enforcement of its service quality
requirement reduced the reliability of travel time estimates and traffic operations.


TTID Addressed Statutory Goals
Through TTID, a traffic measurement infrastructure has been established and is
growing—the first statutory goal. In June 2008, the service provider had deployed
traffic measurement systems in 11 of the 27 participating metropolitan areas. 8
Data sensors were installed that capture traffic volume, lane occupancy, speed, and
vehicle type data, updated in 5-minute intervals. The remaining 16 participating
metropolitan areas had signed agreements with the service provider and were in
various stages of establishing their infrastructure.

TTID has also generated revenue for sharing and reinvestment through
commercialization incentives—the second statutory goal. Specifically, in

7
    SAFETEA-LU, Section 5508, August 10, 2005.
8
    June 2008 refers to the date when we selected the metropolitan areas to include in our audit. According to FHWA,
    in October 2009, TTID had partnership in 27 metropolitan areas.
                                                                                    5


exchange for traffic data, the service provider sells advertising time and charges
license fees, such as in the following examples.

   • In exchange for traffic reports, the service provider sold advertising slots on
     WTAE-TV in Pittsburgh, Pennsylvania.

   • Through a multi-year agreement, The Weather Channel pays the service
     provider an annual fee for traffic related content.

The service provider shares with the participating metropolitan areas a portion of
its gross revenues from radio and television advertising, content and license fee
contracts, and interactive online advertising. The service provider periodically
deposits each metropolitan area’s share of revenue into an escrow account to be
used primarily for reinvestment in the TTID system or to cover the service
provider’s operating expenses in the metropolitan area. For 2003 through 2008,
the service provider distributed approximately $1 million to the 11 metropolitan
areas with deployed systems.

TTID also addressed the third statutory goal—to aggregate data into reports for
multipoint distribution.      FHWA, state transportation departments, and
participating metropolitan areas have access to real-time and historical traffic data.
The data can be used for planning, analysis, and maintenance. The service
provider’s web site makes available to the public basic traveler information, with
red, yellow, and green traffic flow indicators, and traffic incident and event data.
The software applications include an incidents and events monitor; speed display;
sensor information management system; and a data warehouse system that allows
users to create customized reports on specific areas, routes, sensors, and dates.
The service provider also distributes travel data reports to commercial subscribers
through cellular phones and global positioning system (GPS) units. The archived
data were included in FHWA’s “Urban Congestion Report.”

Finally, FHWA hired a contractor with experience in voice and data systems—the
fourth statutory goal. FHWA awarded the original TTID task order to a
diversified technology services company through the Information Technology
Omnibus Procurement (ITOP), an accelerated contracting program. Under ITOP,
the Department prequalified vendors to provide information technology services
for Government agencies, including state and local governments. The vendors
signed multiple award contracts with the Department that allowed them to work on
task order assignments related to voice and data systems, information systems
engineering, systems/facilities management and maintenance, and information
system security support services. Two ITOP vendors submitted proposals for the
first TTID task order. FHWA selected one proposal, making this vendor the TTID
prime contractor responsible for managing a subcontractor that provided the data
                                                                                                                       6


services. The prime contractor had previous contracts with the Department and
other Federal agencies.


FHWA Did Not Optimize Public Partner Benefits
Although TTID addressed each of the statutory goals, FHWA did not optimize
public partner benefits with regard to revenue sharing, integrated data networks,
and data availability. Consequently, participating metropolitan areas received less
shared revenue, achieved less than full infrastructure integration, and obtained less
reliable travel time estimates and traffic operations. These issues are particularly
significant because TTID is intended to generate public partner benefits for several
years after the deployment of data collection and transmission technology.


Lower Revenue Sharing
FHWA allowed the service provider to determine the basis for calculating the
public partners’ shares, but FHWA did not ensure that the determination was
optimal. As a result, the service provider excluded more than 60 percent of its
gross revenue before calculating the metropolitan areas’ shares. Moreover,
FHWA permitted the service provider to define the timing of revenue sharing,
resulting in the service provider sharing approximately $900,000 less with 11
participating metropolitan areas through 2008. Also, although the task order
specified that funds would be shared with the public partners, FHWA allowed the
service provider to reserve the public partners’ shares for system operations and
capital improvements. FHWA has not formally incorporated these allowances
into the Federal task order.

The Federal task order requires the service provider to share with the public
partners the revenue it earns from the sale and marketing of TTID information, in
accordance with the following formula per metropolitan area: 9

           • 0 percent for gross revenue up to $250,000,
           • 5 percent for gross revenue between $250,000 and $1 million, and
           • 10 percent for gross revenue above $1 million.




9
    Metropolitan areas negotiated slight variations of payment and other terms in their local agreements with the service
    provider. However, all agreements retained this basic formula.
                                                                                                                         7


FHWA allowed the service provider
to determine how much of its              Table 1. Total Gross Revenue and
revenue derived from TTID and how          Adjusted Gross Revenue by Year
much derived from non-TTID                               Gross Revenue ($ millions)
sources.     FHWA officials have       Calendar                    Service
accepted the service provider’s           Year                                   Adjusted
                                                      Total       Provider
                                                                                   Total
numbers without verifying or                                    Reductions
auditing them.         FHWA staff         2003       $1.586       $0.650          $0.936
informed us that FHWA planned to          2004       $5.169       $3.437          $1.732
conduct an audit when more
                                          2005       $7.769       $4.867          $2.902
metropolitan areas were generating
revenue. According to the service         2006      $11.822       $6.975          $4.847
provider, non-TTID revenue sources        2007      $20.814      $11.987          $8.827
include police radio dispatch             2008      $19.047      $12.911          $6.136
reports; state-owned sensors and         Total      $66.207      $40.827         $25.380
cameras; and revenue from the sale
                                         Percentage reduction from total          - 62%
of media time that did not relate to
traffic data. Before computing the Source: OIG analysis of service provider data
shared amounts, the service provider
reduces total gross revenue by the amount it attributes to non-TTID sources. From
2003 to 2008, the reductions totaled more than $40.8 million, about 62 percent of
revenue (table 1).

In 2002, an independent report on the service provider’s capabilities recommended
that FHWA consider clearly determining the source of data for the revenue sharing
calculations. 10   The report stated, “FHWA should consider obtaining
documentation supporting [revenue] on an on-going basis,” and “there will be a
need to continually keep track of recognized revenue from multiple locations, in
various phases since initial deployment.” FHWA staff was unable to provide us
evidence of action taken on these considerations. Although FHWA had some
communication with the service provider, it did not fully analyze the service
provider’s revenue sources or the merit of not including certain revenue when
computing the metropolitan areas’ shares.

With regard to the timing of revenue sharing, FHWA permitted the service
provider to negotiate local agreements stating that revenue sharing would occur on
an annual basis, rather than a cumulative basis. The task orders did not address
whether revenue sharing would be calculated on an annual or cumulative basis.
Using cumulative gross revenue would have led to about $2.0 million shared with

10
     FHWA contracted with a certified public accounting firm to assess and report on the service provider’s finances,
     management, and operational functions and its ability to successfully execute the proposed TTID expansion. The
     contract also called for the firm to identify risks related to contracting with the service provider. Mitchell & Titus,
     LLP, Federal Highway Administration Due Diligence Report related to Mobility Technologies, Inc., April 15, 2002.
                                                                                        8


metropolitan areas, $900,000 more than the $1.1 million the service provider
shared based on annual gross revenue for calendar years 2003 through 2008
(table 2).


                Table 2. Annual and Cumulative Shared Revenue by Year
                            Number of Metropolitan   Shared Revenue based on Earnings
     Calendar Year
                             Areas OIG Reviewed       Annual               Cumulative
          2003                       2                 $22,000                $22,000
          2004                         5               $49,000               $72,000
          2005                         7              $116,000              $211,000
          2006                         10             $173,000              $347,000
          2007                         11             $470,000              $776,000
          2008                         11             $253,000              $566,000
       Total 2003 to 2008                            $1,083,000           $1,994,000
Source: OIG analysis of service provider data




Exhibit B contains an illustrative example of the annual revenue sharing
calculation for a single metropolitan area.

Finally, although the Federal task orders specified that the public partners would
share TTID revenue, FHWA allowed the service provider to reserve the public
partners’ shares for system operations or capital improvements related to the
service provider’s assets. The certified public accounting firm’s 2002 report
quotes the service provider’s financial statements that said, “[the shared revenue]
will be reinvested in the Company for upgrades to the digital traffic systems.” 11
Statutory changes in 2005 revised the revenue sharing provision to provide for
reinvestment. The provision now calls for reinvesting the metropolitan areas’
shares in the local intelligent transportation infrastructure system; it does not
require reinvestment exclusively in TTID.


Restricted Data Rights Limited System Integration
In addressing the TTID goal of initiating private technology commercialization,
FHWA granted the service provider exclusive data rights. This decision restricted
the widespread communication of travel information, which resulted in limited
integration. Of the 11 metropolitan areas we tested, 9 did not integrate their traffic
data networks with the service provider’s network, leading to redundancy and
inefficiency. For example, in the San Francisco metropolitan area, the state

11
     Mitchell & Titus, LLP, page 15.
                                                                                   9


processes and distributes to the public traffic data it collects, while keeping the
service provider’s traffic data separate. The state uses the TTID data for limited
purposes within its traffic control center.

The 2002 Federal task order specified that the integration of traffic data among the
existing data networks was critical.        This task order stated, “From the
Department’s perspective, [TTID] would enhance existing surveillance
infrastructure through integration, along with strategic deployment of
supplemental surveillance infrastructure.” Additionally, FHWA’s 2002 program
approval decision memorandum specified that data generated by service provider
sensors was to be integrated with major highway traffic data that the local
agencies were collecting electronically and used for real time traveler information
and traffic management purposes.

During the task order negotiations, however, the service provider told FHWA it
would not proceed unless it controlled the travel data it collected. The service
provider said that without exclusive data rights, it could not sustain the program,
according to FHWA officials. FHWA accepted the service provider’s control of
the traffic information. The data restrictions created a conflict between the
metropolitan areas’ interest in communicating traffic information widely and the
service provider’s interest in controlling the data for commercial purposes. When
the service provider negotiated the local agreements with the metropolitan areas,
the public partners agreed not to make the data available in a form that could be
commercially exploited. Consequently, TTID data collected by sensors on the
publicly-owned right-of-way could not be posted on any state or metropolitan area
web sites without paying the service provider.

Further, the service provider did not permit some metropolitan areas to post traffic
data on their highway message signs. For example, Massachusetts Highway
Department officials told us that in the Boston area, the service provider restricted
the posting of traveler delay times on publicly-owned highway message signs.
The service provider told us it had rethought this restriction, but such a change
would require the public partners to modify the terms of the local agreements
before message postings would be permissible.


Substandard Data Service Quality
The Federal task order required the service provider to ensure at least 95 percent
data availability, that is, 95 percent of the expected number of data sets would be
received from the service provider’s sensors on the dates tested. Beginning in its
September 2006 quarterly report, FHWA’s oversight contractor reported that it
                                                                                                                                                              10


found chronic substandard data availability. 12 In December 2007, data availability
was less than 90 percent in three of six metropolitan areas tested during the prior
year (figure 1).


                                                    Figure 1: Data Availability Test Results
                                                         June 2006 to November 2007

                             100%



                                                                                                                                              Federal
                             95%
                                                                                                                                              Minimum
 Data Availability Results




                                                                                                                                                Providence, RI
                             90%
                                                                                                                                                San Diego, CA

                                                                                                                                                Washington DC

                             85%                                                                                                                Los Angeles, CA

                                                                                                                                                Tampa, FL

                                                                                                                                                Chicago, IL
                             80%




                             75%
                                               06




                                                                                                                   07
                                                                      06




                                                                                                                                         07
                                                                               07




                                                                                              07
                                                           06




                                                                                                                              07
                                    06




                                                                                                        07
                                             20




                                                                                                                 20
                                                                   20




                                                                                                                                      20
                                                                             20




                                                                                           20
                                                        20




                                                                                                                           20
                                 20




                                                                                                     20
                                                                ec




                                                                                                                                   ec
                                         ug




                                                                                                             ug
                                                     ct




                                                                                                                        ct
                                                                             b




                                                                                        pr
                                 n




                                                                                                     n
                                                                           Fe
                               Ju




                                                                                                   Ju
                                                    O




                                                                                                                        O
                                                                D




                                                                                       A




                                                                                                                                   D
                                         A




                                                                                                             A




                                                                                    Test Period


Source: OIG analysis of the testing firm’s data quality reports




FHWA notified the service provider about the report, with which the service
provider disagreed. In February 2008, FHWA communicated the service
provider’s rebuttal to the oversight contractor, but took no further action to resolve
the issue until after OIG inquired in August 2008.

In October 2008, FHWA initiated direct communication between the oversight
contractor and the service provider. Under this arrangement, the oversight
contractor communicates to the service provider monthly about data anomalies it
observes, rather than waiting to submit a quarterly report to FHWA. The service
provider also agreed to update the oversight contractor directly on sensor in-
service status.



12
                        Noblis, Inc., Quality Analysis for Data in the Intelligent Transportation Infrastructure Program [TTID] Data
                        Warehouse, September 2006 through November 2007.
                                                                                                        11


The oversight contractor’s March 2009 quarterly report showed improved data
availability. For December 2008 through February 2009, the oversight contractor
reported that all tested metropolitan areas averaged above 95 percent data
availability, consistent with the task order requirement.


Despite Limitations and Challenges, FHWA Had Opportunities to
Increase Public Benefits
Two factors influenced FHWA so that it did not optimize public partner benefits.
FHWA focused on addressing congressional interest, based on legislation and
correspondence. Also, FHWA focused on minimizing the service provider’s
financial risk to prevent program disruption. FHWA used an atypical payment
schedule and helped ensure availability of the non-Federal matching share.

FHWA officials told us their overarching position was that Congress drove
TTID—statutory provisions established how the program was to work, and
FHWA did not have flexibility to manage TTID in any other way. In 2001,
FHWA planned to use a competitive selection process when Congress authorized
the $50 million expansion. The FHWA Deputy Executive Director’s April 2001
memo stated, “. . . there may be less expensive ways of acquiring the data. We
believe that competition will allow the marketplace to sort this out and result in the
greatest return on the public investment in these data.” However, FHWA referred
us to at least nine letters from members of Congress that generally directed the
Department and FHWA to use the ITOP accelerated procurement process, rather
than full and open competition, to select a service provider. The fiscal year 2002
Defense Appropriations Act 13 required FHWA to use the existing service provider
with the same task order terms and conditions as agreed upon in 1998.
Nevertheless, the statute and the letters did not preclude FHWA from taking
prudent measures to protect the public interest more fully.

Using the existing service provider required FHWA to focus on minimizing the
service provider’s financial risk to prevent program disruption. When legislation
called for expanding TTID, the service provider had few revenue sources. If the
service provider became insolvent, TTID would have experienced a significant
interruption, or ceased to exist, causing this legislative program to fail. FHWA’s
June 2002 Decision to Proceed memorandum highlighted the risk of default, if
TTID did not generate sufficient revenues to sustain the service provider’s
operation or keep the service provider’s investors satisfied. In such circumstances,
“. . . default would be likely,” according to the letter. In 2000 and 2001, the
service provider reported net losses of $17.1 million and $24.6 million,
respectively. At that time, the service provider also had a debt of $20 million,

13
     Fiscal Year 2002 Defense Appropriations Act, Public Law 107-117, Section 1101, January 10, 2002.
                                                                                                                   12


secured with all its assets. 14 The service provider’s long-term viability depended
on its ability to generate cash for operating needs and debt service. Positive cash
flow from TTID was not expected until June 2004. FHWA was also aware that
the service provider wanted cash for aggressive sales and marketing in major
markets.

To improve the service provider’s fiscal stability, FHWA used some atypical
measures. Most notably, FHWA paid the service provider most of the Federal
$2 million per metropolitan area well in advance of receiving any traffic data, even
as FHWA noted, “The primary Federal interest [was] in the data, not the
infrastructure.” 15 FHWA explained, “Unlike a typical services contract, however,
the Federal funding would be provided on the front end of the 10-year period to
support the development and deployment of the data collection system.”
Additionally, FHWA specified that “in order to fulfill the legislative objectives for
this program, it was necessary for the required infrastructure to be developed and
implemented before any traffic data could be provided.” Therefore, FHWA
established milestone payments based on development and deployment of the
system, which included installation of equipment. FHWA typically paid about
90 percent of the $2 million per metropolitan area within the local agreement’s
first year—before any traffic data were delivered.

While Federal funds could be used for 80 percent of the costs, many of the
metropolitan areas were either unable or unwilling to provide the non-Federal
match. In this instance, FHWA used other measures to help the service provider
meet the 20 percent non-Federal share. FHWA credited the service provider’s
capital equipment spending toward the non-Federal share. The service provider
retains ownership of the equipment. Accordingly, FHWA allowed the service
provider to report capital purchases in total and not by metropolitan area;
therefore, spending more than 20 percent in one metropolitan area could count as
matching funds for another metropolitan area.


FHWA WAS NOT ABLE TO COMPLY WITH COMPETITIVE
SELECTION PROVISIONS
In 2002, Congress directed the Department to expand TTID with the existing
service provider. In 2005, Congress created part II of the statute, which directed
the Department to select TTID private partners on a competitive basis. Although


14
     Based on information provided by the service provider in its U.S. Securities and Exchange Commission, Registration
     Statement Form S-1, filed on August 30, 2005.
15
     FHWA, Decision to Proceed memorandum from the Acting Associate Administrator for Operations to the Federal
     Highway Administrator, June 7, 2001.
                                                                                13


FHWA took action to comply with part II, delays and limited funding prevented
completion of the competitive process.

In October 2005, FHWA issued a public notice announcing the extension and
expansion of TTID and soliciting metropolitan areas and service providers to
participate. 16 By February 2006, 24 metropolitan areas had responded to the
notice and had expressed interest in participating in TTID expansion. In
February 2007, FHWA issued a pre-solicitation notice for a service provider
competition 17 and in June 2007, issued the final solicitation. 18 The existing
service provider submitted the only bid. A potential competitor advised FHWA
that it would not submit a proposal. According to the potential competitor, the
solicitation showed little difference from the original program and thus gave an
unfair competitive advantage to the existing service provider. In September 2007,
FHWA cancelled the solicitation and started developing a new one.

More than 1 year elapsed between the due date for responses to FHWA’s initial
public notice about TTID expansion and FHWA’s solicitation for service provider
bids. FHWA staff informed us that the delay until February 2006 was due to
FHWA’s focus on identifying metropolitan areas that would be willing to
participate. From February 2006 until June 2007, FHWA focused on establishing
a scope of services with a specific metropolitan area and seeking potential
competitive service providers.

While part II directed FHWA to conduct a competition, the provision known as
part I in the same 2005 legislation reduced the amount of funds available for such
a competition. Part I required FHWA to complete the incumbent service
provider’s $50 million task order for 25 metropolitan areas. As a result, FHWA
had enough funds, $5.5 million from previous authorizations, for up to three
metropolitan areas under part II. Congress rescinded the funds for part II in
December 2007.


CONCLUSIONS
TTID has benefited the public by expanding the deployment and use of traffic data
systems in metropolitan areas, generating revenues for reinvestment, and
producing software to generate traffic reports for Federal, state, and metropolitan
agencies. However, FHWA allowed the service provider to control significant
aspects of the program, consequently diminishing TTID’s value to the public
partners. With several years remaining on FHWA’s task order with the current

16
     Federal Register, page 60870, October 19, 2005.
17
     FedBizOpps, February 28, 2007.
18
     Solicitation No. DTFH61-07-R-00123, June 25, 2007.
                                                                                14


service provider, TTID can generate public partner benefits well into the future. A
more optimal distribution of benefits between the public and private partners is
possible through better FHWA stewardship.


RECOMMENDATIONS
To enhance the public benefits of the TTID program, we recommend that the
Federal Highway Administrator:

1. Define and document a more optimal methodology for revenue sharing
   between the service provider and the metropolitan areas, considering any
   exclusions or deductions from the service provider’s gross revenues.

2. Test the service provider’s revenue sharing for accuracy according to the
   documented methodology.

3. Develop and implement options to increase integration of traffic information
   and posting on highway message signs.

4. Develop and implement a plan regarding data service availability that requires:

   a. Timely communication of the oversight contractor’s test results to the
      service provider and participating metropolitan areas, and

   b. Prompt remediation of any results below the task order specified minimum
      performance level.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FHWA for review and comment on
September 24, 2009. FHWA provided us formal comments on December 4, 2009,
and additional informal comments. We incorporated the comments into this
report, as appropriate. FHWA’s formal comments are included as an appendix to
this report.

In its formal comments to our draft report, FHWA requested a more balanced
representation of the TTID program and its benefits. FHWA also pointed out that
execution of the program in 1998 required innovative approaches, since virtually
no precedents existed at the time for providing traffic information using public–
private partnerships. In our final report, we note FHWA’s efforts to enhance
public benefits by assisting the states and metropolitan areas as they negotiated
                                                                                15


agreements with the service provider. We, however, continue to maintain that
FHWA can do more to optimize public benefits, especially given the experience
the agency now has implementing the program.

FHWA concurred with recommendations 2, 3, and 4, and provided target
completion dates for recommendations 2 and 3. FHWA stated that it has
completed actions to implement recommendation 4.                 With regard to
recommendation 1, FHWA partially concurred, stating that the formula is
reasonable and fair for both public and private partners. Further, FHWA stated
that it does not have the latitude to redefine and dictate new terms for revenue
sharing under the task order. We recognize the circumstances surrounding
renegotiation of the task order. Nevertheless, as FHWA defines and documents
the revenue sharing methodology, we encourage FHWA to identify opportunities
to improve revenue sharing for the public partners. In addition, given FHWA’s
target completion dates for recommendations 1 and 2, we question how FHWA
plans to test the service provider’s revenue sharing prior to defining and
documenting the methodology. FHWA plans to complete the testing by
February 1, 2010, while it does not plan to complete defining and documenting the
methodology until March 31, 2010. Finally, to ensure consistency with the report
body, we changed the wording of recommendation 1—from equitable in the draft
report to optimal in the final report. This rewording does not change the intent of
our recommendation.


ACTIONS REQUIRED
We consider FHWA’s planned actions for recommendations 1, 2, and 3 to be
reasonable and resolved, subject to the follow-up provisions in Department of
Transportation Order 8000.1C. We request that within 30 days of the date of this
report FHWA clarify in writing the target completion dates for recommendations 1
and 2. We agree that FHWA’s actions already taken fulfill the intent of
recommendation 4 and we consider it closed.

We appreciate the courtesies and cooperation of FHWA representatives during this
audit. If you have any questions concerning this report, please call me, or
Rosalyn G. Millman, Deputy Assistant Inspector General, at (202) 366-5630.



                                        #
                                                                                   16




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from February 2008 through July 2009 in
accordance with Generally Accepted Government Auditing Standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To assess whether FHWA addressed statutory goals and optimized the TTID
benefits to the public partners, we reviewed the legislative history, regulations, and
implementing guidelines; non-Federal match requirements; Federal task orders;
congressional communications; April 2002 due diligence report on the service
provider’s financial condition; and local agreements between the service provider
and the 27 participating metropolitan areas. We also interviewed service provider
officials and financial staff, conducted an internal control review of its TTID cost
and revenue financial systems, and reviewed supporting information. We
interviewed FHWA Office of Operations officials and Division Office officials
with management responsibility for the program’s metropolitan areas. We also
interviewed FHWA’s data quality oversight contractor and reviewed its reports on
TTID. We relied on OIG’s prior work on the ITOP procurement process that
resulted in the original Federal task order.

Additionally, we communicated with the state and metropolitan area traffic control
center managers and related program officials that manage the data services local
agreements with the service provider for the 11 metropolitan areas where the
service provider had completed all Federal task order milestones by June 30, 2008.
The areas were Boston, Chicago, Detroit, Oklahoma City, Philadelphia,
Pittsburgh, Providence, San Bernardino, San Francisco, St. Louis, and Tampa.

In requesting this audit, Senator Orrin Hatch and Representative Anthony Weiner
stated that FHWA did not follow 2005 congressional direction to select TTID
private partners through competition. In the requestors’ view, the 2005 legislated
changes would have increased competition, thereby, reducing the likelihood of a
taxpayer funded traffic data services monopoly. To assess whether FHWA
complied with 2005 statutory provisions for a competitive private partner selection
process, we reviewed relevant legislation, documents, and the Department Office
of Chief Counsel’s position and interviewed FHWA officials.




Exhibit A. Scope and Methodology
                                                                                                                 17




EXHIBIT B. ILLUSTRATIVE EXAMPLE OF SERVICE PROVIDER’S
CALCULATION OF REVENUE SHARING
Step 1: The service provider reduces gross revenue by amounts it does not
attribute to TTID activity.

                                                                      Source of Revenue
                                                                         Content and Interactive
            Adjustments                      Radio            TV          Licensing  Advertising         Total
Gross Revenue                            $996,000        $300,000          $88,000        $35,000     $1,419,000
     Revenue attributed to
     exchange of media time       $712,000                       $0               $0             $0   - $712,000
     slots with advertising firms
     Revenue attributed to data
                                                 $0              $0        $66,000               $0    - $66,000
     from non-TTID sensors*
Adjusted Gross Revenue                   $284,000        $300,000          $22,000        $35,000      $641,000
*   Probe vehicles, police radio dispatch reports and state-owned traffic sensors and cameras.

Source: OIG analysis.



Step 2: The service provider calculates the metropolitan area’s share of TTID
revenue.

                                     Metropolitan Area Share of $641,000
0% for revenue up to $250,000                                    0% x ($250,000)                            $0
5% for revenue between $250,000 and $1 million                   5% x ($641,000 - $250,000)           $19,500
10% for revenue over $1 million                                  10% x ($0)                                 $0
     Total Metropolitan Share                                                                         $19,550
Source: OIG analysis




Exhibit B. Illustrati ve Example Of Service Provi der’s Calculation Of
Revenue Shari ng
                                                                       18




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
  Name                            Title

  Rosalyn G. Millman              Deputy Assistant Inspector General
                                    for Surface and Maritime Program
                                    Audits

  Peter F. Babachicos             Project Manager

  William R. Lovett               Senior Auditor

  P. David McBride                Senior Analyst




Exhibit C. Major Contributors To Thi s Report
                                                                                        19




APPENDIX. MANAGEMENT COMMENTS



                                                     Memorandum

Subject: INFORMATION: Federal Highway Administration (FHWA)
         Response to Office of Inspector General (OIG) Draft Report,      Date:   December 4, 2009
         “Transportation Technology Innovation and Demonstration
         Program (TTID)”
                                                                            Reply to
                                                                            Attn. of:   HOP/HAIM
From:    Victor M. Mendez
         Administrator

To:      Calvin L. Scovel III
         Inspector General (JA-40)

The material below responds to the recommendations in the subject report. In general, FHWA
requests that the OIG report present a more balanced representation of the TTID program and its
benefits for the general public, public agencies, and the private partner. The execution of the
program through a public-private partnership required innovative approaches with virtually no
precedents when the program was initiated in 1998. Information management, and more specifically
transportation information, has been a very dynamic market sector over the past decade since the
program began. As reflected in our responses below, we have worked with the public agencies and a
private partner in affecting changes to respond to changing conditions in the industry, within the
constraints of the contract documents. The general public now has unprecedented access to
transportation information because of the increased role that private firms, including the TTID
private partner, have assumed in making information available through various and evolving
techniques. The public benefits through this increased awareness by being able to make better
decisions regarding travel choices.




Appendix. Management Comment s
                                                                                         20


We do appreciate the OIG’s recognition that FHWA’s implementation of TTID necessarily balanced
statutory requirements in order to achieve the legislative objective of providing private technology
commercialization initiatives to generate revenues. The FHWA protected the public benefit in the
public-private partnership arrangement by negotiating the terms of travel data made available to the
general public as well as revenue sharing provisions, while also enabling the private partner to
generate revenues as required by statute.

The FHWA negotiated a basic framework for administering the shared revenue that was included in
a sample local agreement for consideration by the public partners, or State participants, who had the
flexibility to further negotiate how they would receive and use shared revenue based on their local
needs. State participants struck optimal deals in their negotiations and determined specific contract
provisions as part of a local agreement that describes how revenue will be reported, accounted for,
and allocated. Three State participants, for example, require the private partner to pay the State (in
the form of monetary compensation) a percentage of revenues attributable to sensor systems
installed within their metropolitan area. Five State participants, on the other hand, require earned
revenue to be used for transportation system management or Intelligent Transportation System
projects. Participating States had the flexibility to negotiate a way for receiving and using the shared
revenue that best suited their circumstances and needs.

We also appreciate the OIG’s mention in the draft report that FHWA used some atypical measures to
improve the service provider’s fiscal stability. This is yet another good example to illustrate the
careful balance inherent to successful public-private partnerships. The FHWA’s concern with the
private partner’s fiscal stability was intrinsic to protecting the public partners’ interests. Actions
taken to ensure the private partner’s ability to remain in business and to continue providing traffic
data to the public partners during the life of the agreement and beyond were critical to meet the
public partners’ needs and to enhance the public benefits of the program, all the while fulfilling the
legislative objectives of TTID.

Recommendation #1: “Define and document a more equitable methodology for revenue sharing
between the service provider and the metropolitan areas, considering any exclusions or deductions
from the service provider’s gross revenues.”

Response: Concur in part. An equitable methodology for revenue sharing was developed when the
task order was negotiated with the private partner. The FHWA conducted the necessary due
diligence and determined the revenue sharing formula to be reasonable and fair for both public and
private partners. While FHWA does not have the latitude to redefine and dictate new terms for
revenue sharing under the current task order, we have continued to formalize our processes and will
finalize documentation of our methodology for revenue sharing by March 31, 2010.

Recommendation #2: “Test the service provider’s revenue sharing for accuracy according to the
documented methodology.”

Response: Concur. The FHWA planned to conduct an audit on revenue share calculations when
more cities were completed and generating revenue. With the recent completion of more cities, on
August 7, FHWA awarded a purchase order to an independent accounting firm to perform a review
of the private partner’s financial and cash flow statements. The accounting firm will also audit



Appendix. Management Comment s
                                                                                       21


revenue sharing reports submitted over the past 5 years, as required under the task order. This audit
will be conducted to determine the amount of revenue derived from TTID and non-TTID sources
and to verify that revenues generated from the sale of traffic data have been properly shared with
local public agencies, as also required by the terms of the task order. The audit requires the
accounting firm to verify the following:
   •   Gross revenue calculations are appropriate and consistent
   •   Gross revenue are not significantly overstated or undervalued
   •   Gross revenue calculations are in accordance with the formula/arrangement
   •   Procedures used to calculate the revenue are appropriate
   •   Revenue share calculations are appropriate
   •   Deductibles from gross revenues are accurate
   •   Revenue reinvestment amounts placed in escrow account are adequate and accurate

The target date for completing this recommendation is February 1, 2010.

Recommendation #3: “Develop and implement options to increase integration of traffic
information and posting on highway message signs.”

Response: Concur. The FHWA is working with its division offices where their State partners have
participated in the TTID program, but have yet to implement travel time messages on dynamic
message signs. We requested the assistance of these offices in working with their respective States
to identify locations where the posting of travel times will serve the greatest good for motorists in
the area. Once we receive this information, we will work with the private partner to provide the
necessary travel time data to the DOT. On October 16, FHWA met with the private partner to
discuss this issue. The target date for completion is April 30, 2010.
Recommendation #4: “Develop and implement a plan regarding data service availability that
requires: a) Timely communication of the oversight contractor’s test results to the service provider
and participating metropolitan areas, and b) Prompt remediation of any results below the task order
specified minimum performance level.”
Response: Concur. The FHWA recognized that there had been instances of substandard data
service quality in the past and, as OIG points out, FHWA has taken appropriate corrective actions
and implemented procedures regarding the data quality reports. The private partner is now required
to provide the oversight contractor monthly information on omitted “inactive stations” due to
construction and communication issues, along with a combined table at the end of the 3 months.
The private partner will make the information available in the data archives the next time the
software is updated. To more effectively manage speed and volume data, the private partner has
implemented a plan to review these reports weekly in order to address sensors that have failed their
respective tests. Furthermore, a monthly conference call has been established between the private
partner and oversight contractor to exchange information regarding any short and long-term issues
with data. Between December 2008 and February 2009, all tested metropolitan areas averaged
above 95 percent data availability, and FHWA does not foresee any additional problems concerning
this issue. Implementation of the procedures described above addresses the recommendation and we
consider this recommendation closed.




Appendix. Management Comment s
                                                                                         22


We appreciate the OIG’s work relating to this matter and have provided technical comments
separately to offer clarifications to a number of the findings in the report. If you have any questions
or comments regarding this response, please contact Robert Rupert at 202-366-2194 or Jimmy Chu
at 202-366-3379.




Appendix. Management Comment s
